                               AUDIT REPORT                                    IG-03-011




Report Recipients:
AE/Chief Engineer               INDEPENDENT VERIFICATION AND VALIDATION
Q/Associate Administrator
  for Safety and Mission
                                             OF SOFTWARE
  Assurance
S/Associate Administrator                            March 28, 2003
  for Space Science



 cc:
 ADT/Associate Deputy
   Administrator for
   Technical Programs
 AE/Software Engineering
   Initiative Program
   Executive
 AO/Acting Chief
   Information Officer
 B/Deputy Chief Financial
   Officer for Financial
   Management
 B/Deputy Chief Financial
    Officer for Resources
    (Comptroller)
 G/General Counsel
 R/Associate Administrator
    for Aerospace Technology
 Y/Associate Administrator
   for Earth Science
 JM/Director, Management
   Assessment Division
 GRC/0100/Director, Glenn
   Research Center
 GSFC/100/Director, NASA
   IV&V Facility
 JPL/1000/Director, Jet
   Propulsion Laboratory
                               OFFICE OF INSPECTOR GENERAL
                               Released by: ___[Original Signed By]_______
                               Alan J. Lamoreaux, Assistant Inspector General for Audits
  National Aeronautics and
   Space Administration
IG-03-011                                                                 March 28, 2003
 A-02-005-00

            Independent Verification and Validation of Software

Independent verification and validation (IV&V) is a critical management control for
minimizing the risk of software-related, catastrophic mission failure. The audit focused
on the effectiveness of NASA’s procedures for ensuring that the appropriate level of
IV&V is performed on its software development projects. Details regarding the audit
objectives, background, scope, and methodology are in Appendix B.

We found that NASA had not effectively ensured that all applicable software
development projects were assessed to determine their appropriate level of IV&V.

   •   NASA did not provide a complete list of all applicable software development
       projects to the IV&V Facility – the Agency’s center of expertise for IV&V
       processes and technology. Such a list would have enabled Facility personnel to
       identify projects that had not yet been assessed to determine the need for IV&V.

   •   NASA did not include IV&V requirements in the current Jet Propulsion
       Laboratory (JPL) contract that will expire on September 30, 2003. NASA
       management agreed to incorporate the requirements into the follow-on contract
       effective October 1, 2003.

As a result of this condition, the safety, quality, and reliability of some of the Agency’s
programs and projects, including mission-critical programs and projects, could be
compromised. For example, the Fluids and Combustion Facility (FCF) project, managed
by Glenn Research Center, was a likely candidate for independent software reliability
assurance. The FCF will be a permanent multi-rack research laboratory for conducting
microgravity experiments onboard the International Space Station. The $72 million
project consists of hardware and related software that is expected to host more than 100
fluids and combustion experiments over its anticipated lifespan. After we brought our
concerns about this project to management’s attention, the NASA IV&V Facility told the
project manager to assess the FCF project for IV&V; project management officials
subsequently concluded that the FCF required IV&V. Without IV&V, the microgravity
research program faced an unnecessary risk that the FCF project would not perform as
intended.

Management Control Needed to Ensure Effective Application of IV&V Policy

NASA Policy Directive (NPD) 8730.4 requires that the IV&V Facility maintain “explicit
involvement” with project managers in determining the appropriate level of IV&V for
their software development projects. To ensure effective implementation of this
requirement, the Agency should provide the IV&V Facility a complete list of all
applicable software development projects. Facility personnel could then identify
software projects for which IV&V assessment criteria should be applied and, in turn,
advise the cognizant project managers to apply the criteria to those projects. Details
regarding NASA’s IV&V policy for software are in Appendix C. Absent a complete list
of applicable software development projects, IV&V Facility personnel initiated their own
software project identification process by contacting Center personnel and searching the
Agency’s mission and project Web sites for information on software development
activities. The Facility’s efforts were commendable but did not result in a complete and
accurate list of software development projects.

IV&V Requirements Not Included in Current JPL Contract

NPD 8730.4 states that the Agency’s IV&V policy is applicable to JPL to the extent
specified in the Agency’s contract with the California Institute of Technology. In this
regard, NASA had not incorporated the NPD requirement into the current contract, and
JPL’s internal policies did not require project managers to complete the Agency’s IV&V
assessment criteria. Further information regarding the Agency’s IV&V policy relative to
the California Institute of Technology contract is in Appendix D.

We discussed the Agency’s IV&V policy with JPL procurement officials, NASA Office
of Space Science officials, and officials in the NASA Offices of Safety and Mission
Assurance and Chief Engineer. NASA management told us that it would not be prudent
or cost-effective to incorporate software IV&V requirements into the current JPL
contract; however, management agreed to incorporate the requirements into the follow-on
contract effective October 1, 2003. The follow-on contract was awarded in November
2002 and requires JPL to comply with NPD 8730.4.

Conclusion

NASA should apply effective management controls, on a recurring basis, to ensure the
IV&V policy is fully implemented. Until needed corrective actions are implemented,
NASA’s software management, engineering, and assurance processes will not be fully
integrated with the Agency’s program and project management processes. Further,
NASA has not ensured that it has developed risk analyses and risk management strategies
at each stage of the software development life-cycle.

Recommendations for Corrective Action

1. The NASA Chief Engineer, in coordination with the Associate Administrator for
   Safety and Mission Assurance, should establish a process that provides the NASA
   IV&V Facility, on a recurring basis, a complete and accurate list of the Agency’s
   programs and projects governed by either NASA Procedures and Guidelines 7120.5A
   or NASA Technical Standard 8719.13A.


2. The NASA Chief Engineer should verify that the NASA IV&V Facility initiates
   appropriate actions to ensure that the programs and projects identified in



                                           2
   Recommendation 1 comply with the Agency's software IV&V policy.

Management’s Response and our Evaluation of the Response

NASA concurred with the intent of the recommendations and has initiated corrective
actions. Although we consider management’s comments (Appendix F) to be responsive
to the recommendations, the success of the alternative actions to be taken will depend on
effective coordination between the Program Management Councils and the IV&V
Facility. Effective coordination will help ensure that the Agency has adequately
considered the need for IV&V and has performed IV&V where appropriate. Details
related to disposition and closure of the recommendations are in Appendix A.




                                            3
List of Appendixes

Appendix A – Status of Recommendations

Appendix B – Objective, Background, Scope, and Methodology

Appendix C – NASA’s IV&V Policy for Software

Appendix D – IV&V Policy Relative to NASA’s Contract with the
             California Institute of Technology

Appendix E – Summary of Prior Coverage

Appendix F – Management’s Response

Appendix G – Report Distribution




Acronyms Used in the Report

FCF         Fluids and Combustion Facility
IV&V        Independent Verification and Validation
JPL         Jet Propulsion Laboratory
MCO         Mars Climate Orbiter
MPIAT       Mars Program Independent Assessment Team
MPL         Mars Polar Lander
NPD         NASA Policy Directive
NPG         NASA Procedures and Guidelines
OIG         Office of Inspector General




                                     4
                   Appendix A. Status of Recommendations


      Recommendation No.      Resolved   Unresolved   Open/ECD* Closed
               1                 X                     9/30/2003
               2                 X                     9/30/2003

* Estimated Completion Date




                                     5
       Appendix B. Objective, Background, Scope, and Methodology

Objective

The overall objective of this audit was to determine whether NASA had established and
implemented effective management controls over the Agency’s software development
process. Specifically, we determined whether effective controls existed to ensure the
following:

   •    safety, quality, and reliability of software developed by or for NASA;
   •    integration of NASA software management, engineering, and assurance processes
        with the Agency’s program/project management processes; and
   •    development of risk analyses and risk management strategies at each stage of the
        software development life-cycle.

Background

Independent verification and validation (IV&V) is a critical management control that
helps ensure the safety, quality, and reliability of NASA’s software. Software
verification consists of assessing objective evidence at different phases of the
development life cycle to ensure that the software product complies with specifications.
Software validation takes place at the end of the software development process and
consists of performing tests and assessing other objective evidence to determine whether
a software system will accomplish its intended purpose. Validation ensures that a
software system will perform as expected under operational conditions.

Independence is a key component to successful software verification and validation.
Software developers and project managers may have vested interests and may not be
objective in their self-assessments. Performing software verification and validation
independently of the development and management functions helps to ensure that
verification and validation activities are unbiased and based on objective evidence.

Congress established the IV&V Facility in Fairmont, West Virginia, in October 1991 to
address recommendations made by the National Research Council and the Presidential
Commission on the Space Shuttle Challenger Accident. The Facility is technically
independent but is managed by the Goddard Space Flight Center (Goddard) and relies on
Goddard for support functions such as personnel, training, and procurement.

The NASA IV&V Facility provides two levels of software assurance: independent
assessment (IA) and full IV&V. An IA is a one-time review of existing products and
plans, whereas IV&V is applied over the entire life cycle of a software system. Full
IV&V provides more rigorous software assurance.

The importance of software testing is underscored by the failures of the Mars Climate
Orbiter (MCO) and Mars Polar Lander (MPL) in 1999. NASA developed and launched



                                            6
Appendix B

the two missions (both part of the JPL Mars '98 Development Project) at a total cost of
more than $327 million. To investigate the failures, NASA established the Mars Program
Independent Assessment Team (MPIAT). The MPIAT summary report states:

       . . . one mistake can be mission catastrophic. Mistakes are prevented by
       oversight, test, and independent analysis, which were deficient for MCO.
       Specifically, software testing was inadequate.

Regarding the MPL, the assessment team’s report states:

       As with MCO, the most probable failure of the Mars Polar Lander resulted from
       inadequate checks and balances that permitted an incomplete systems test and
       allowed a significant software design flaw to go undetected.

NASA has made progress toward establishing and implementing effective management
controls over the Agency’s software development process. For example, the Agency
established policy (NPD 8730.4) to conduct IV&V of software based on the cost, size,
complexity, life span, risk, and consequences of failure. In addition, the Agency
established quantifiable criteria for assessing whether IV&V should be applied to a
software development project and for performing the appropriate level of IV&V.
However, as stated in this report, NASA had not ensured that needed IV&V was
performed.

Scope and Methodology

NASA employs many processes, techniques, tools, and services to ensure the safety,
quality, and reliability of its software. Because of the importance of IV&V as a
management control in the software development process, our audit focused on the
effectiveness of Agency procedures for ensuring that IV&V was performed. We did not
assess the adequacy of detailed IV&V test procedures for ensuring that NASA software
products will comply with specifications or that software systems will perform as
expected under operational conditions.

To accomplish our objectives, we completed these steps:

   •   Reviewed NASA policies, procedures, and guidelines pertaining to the Agency’s
       management of software development and use of the NASA IV&V Facility in
       Fairmont, West Virginia.
   •   Interviewed officials in the NASA Office of Safety and Mission Assurance and
       NASA Office of Chief Engineer regarding the Agency’s IV&V policies and the
       applicability of IV&V policy to the Jet Propulsion Laboratory.




                                            7
                                                                            Appendix B

   •   Interviewed officials from the NASA IV&V Facility regarding procedures for
       assessing applicable software development projects for IV&V.
   •   Interviewed officials at selected Centers regarding procedures for complying with
       NASA’s IV&V policy. Center officials included project managers, software
       quality assurance managers, personnel in systems management offices, and
       procurement personnel.
   •   Compared Center-provided lists of software development projects to IV&V
       Facility records of projects for which the Agency’s IV&V assessment criteria had
       been adequately applied.

We did not assess the reliability of computer-processed data because we did not rely on
such data to achieve our objectives.

Management Controls Reviewed

We interviewed officials at NASA Headquarters, the NASA IV&V Facility, and selected
Centers to identify and assess management controls relating to the Agency’s management
of the software development process. We considered the management controls to be
adequate except that NASA had not fully implemented effective controls to ensure that
all applicable software development projects were adequately assessed to determine the
appropriate level of IV&V.

Audit Field Work

We performed the audit field work from October 2001 through August 2002 at NASA
Headquarters, the IV&V Facility, Glenn Research Center, the Jet Propulsion Laboratory,
Johnson Space Center, Langley Research Center, and Marshall Space Flight Center. We
conducted the audit in accordance with generally accepted government auditing
standards.




                                            8
               Appendix C. NASA’s IV&V Policy for Software
Memorandum Establishing Interim IV&V Policy. On July 21, 2000, the NASA Chief
Engineer issued a memorandum on the Agency’s policy for software IV&V. The Chief
Engineer identified assessment criteria that Agency personnel should use in deciding
whether IV&V is needed for a software development project. The criteria included steps
for assessing the following consequences of software failure:

   •   loss of life,
   •   catastrophic mission failure,
   •   loss of equipment,
   •   waste of software resource investment,
   •   negative political and public image stemming from the failure of a system, and
   •   effect on routine operations.

The criteria also included steps for assessing the probability of software failure. Certain
variables could affect the probability of failure:

   •   amount of contractor support,
   •   schedule pressure,
   •   degree of innovation, and
   •   number of software lines of code.

NASA Policy Directive (NPD) 8730.4, "Software Independent Verification and
Validation (IV&V) Policy," August 1, 2001. The NPD establishes Agency policy to
conduct IV&V based on the cost, size, complexity, life span, risk, and consequences of
software failure. Section 1 of the Directive states that NASA will do the following:

       a. Establish and apply criteria, tools, and methodology to evaluate and assess software
       risk for the purpose of identifying the appropriate level of IV&V.

       b. For programs and projects governed by NPG [NASA Procedures and Guidelines]
       7120.5A, task the NASA IV&V Facility in Fairmont, WV, to manage the performance
       of all IV&V [emphasis added] for software identified per the established criteria, and for
       any other safety critical software (as defined in NASA-STD-8719.13A). [NASA
       Technical Standard NASA-STD-8719.13A, “Software Safety,” September 15, 1997,
       describes the activities necessary to ensure that safety is designed into software that is
       acquired or developed by NASA and that safety is maintained throughout the software
       life cycle.]

       c. Require programs and projects governed by NPG 7120.5A to determine the level of
       IV&V to be performed with the explicit involvement [emphasis added] of the NASA
       IV&V Facility.




                                                   9
                                                                        Appendix C

Section 2 of the NPD states that the Agency’s IV&V policy is applicable to “… NASA
Headquarters and NASA Centers, … and to the Jet Propulsion Laboratory to the extent
specified in the contract.” The NASA Office of Safety and Mission Assurance is
responsible for NPD 8730.4 and the Agency’s overall policy regarding software IV&V.
The NASA Chief Engineer is responsible for ensuring that all programs and projects
follow the Agency’s IV&V policy.




                                         10
    Appendix D. IV&V Policy Relative to NASA’s Contract With the
                  California Institute of Technology
NASA issued contract NAS7-1407 to the California Institute of Technology to provide
for operation of the Jet Propulsion Laboratory (JPL) from October 1998 through
September 2003. Contract Section G-14, “NASA Issuance System,” states:

       The parties hereto agree that NASA Management Directives System publications
       ("NASA Issuances") are not in and of themselves applicable to the Contractor, and that
       the Contractor therefore is not obligated merely by virtue of their issuance to implement
       their intent or to observe the policies and procedures set forth therein, irrespective of the
       fact that certain NASA Issuances may state that they apply to JPL. NASA Issuances
       become contractually binding and obligatory upon the Contractor only when and to the
       extent made so by appropriate contractual means.

The NASA Office of Space Science has cognizance over the JPL contract.

During the audit, we found that JPL’s internal policies did not require project managers
to complete the Agency’s IV&V assessment criteria. We brought this matter to the
attention of cognizant JPL officials who subsequently established local procedures that
required project managers to complete the Agency's IV&V assessment criteria for
determining the need for IV&V. JPL issued the official requirement in Section 7.4 of
"Flight Project Practices, Rev. 2" (Document Identification 58032), effective June 28,
2002. Although JPL officials did not issue the official requirement until June 2002,
JPL’s software development projects had been in compliance with the Agency’s software
IV&V policy since July 2000.




                                                    11
                   Appendix E. Summary of Prior Coverage
The NASA Office of Inspector General (OIG) issued one report on physical access
controls at the NASA Independent Verification and Validation (IV&V) Facility and one
report on the management of software development. The reports are summarized below,
and copies are available at http://www.hq.nasa.gov/office/oig/hq/reports.html.

“NASA's Badging Program and Physical Access Controls at the Goddard Space
Flight Center Independent Verification & Validation Facility,” Report Number
G-01-026, September 25, 2001. The OIG completed an inspection of NASA's badging
program and physical access controls at the Goddard Space Flight Center IV&V Facility.
The objective was to focus on whether policies and procedures were in place to
adequately control access to facilities including mission-critical locations and facilities
containing sensitive or controlled information or materials. NASA concurred with the
report's four recommendations for improving security controls and operational
effectiveness.

“Software Assurance,” Report Number IG-00-059, September 28, 2000. NASA
lacked adequate management controls for determining whether to use IV&V in its
software development projects and for collecting, analyzing, and reporting software
metrics designed to monitor these projects. This condition occurred because NASA had
not issued guidelines to implement the controls. As a result, NASA had less assurance
that the risks of potential software failures were adequately reduced through IV&V and
the implementation of sound software assurance policies and procedures. NASA
concurred with each of the report’s two recommendations and issued interim IV&V
criteria for use by program and project managers in determining whether new or existing
projects should be subject to IV&V. Also, the Agency issued its IV&V policy in NASA
Policy Directive (NPD) 8730.4, "Software Independent Verification and Validation
(IV&V) Policy.”




                                            12
Appendix F. Management’s Response




               13
     Appendix F




14
Appendix F




             15
     Appendix F




16
                      Appendix G. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AA/Chief of Staff
AE/Chief Engineer
AO/Chief Information Officer
ADT/Associate Deputy Administrator for Technical Programs
B/Deputy Chief Financial Officer for Financial Management
B/Deputy Chief Financial Officer for Resources (Comptroller)
BF/Director, Financial Management Division
G/General Counsel
H/Assistant Administrator for Procurement
HK/Director, Contract Management Division
HS/Director, Program Operations Division
J/Assistant Administrator for Management Systems
JM/Director, Management Assessment Division
L/Assistant Administrator for Legislative Affairs
M/Associate Administrator for Space Flight
Q/Associate Administrator for Safety and Mission Assurance
R/Associate Administrator for Aerospace Technology
S/Associate Administrator for Space Science
Y/Associate Administrator for Earth Science

NASA Centers

GRC/0100/Director, Glenn Research Center
GSFC/100/Director, Goddard Space Flight Center
JPL/1000/Director, Jet Propulsion Laboratory
KSC/AF/Chief Counsel, John F. Kennedy Space Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget




                                          17
                                                                         Appendix G

Non-NASA Federal Organizations and Individuals (Cont.)

Managing Director, Acquisition and Sourcing Management Team, General Accounting
 Office
Senior Professional Assistant, Senate Subcommittee on Science, Technology, and Space

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management and
 Intergovernmental Relations
House Subcommittee on Technology and Procurement Policy
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member

The Honorable Pete Sessions, U.S. House of Representatives




                                         18
                  NASA Assistant Inspector General for Auditing
                                 Reader Survey


The NASA Office of Inspector General has a continuing interest in improving the
usefulness of our reports. We wish to make our reports responsive to our customers’
interests, consistent with our statutory responsibility. Could you help us by completing
our reader survey? For your convenience, the questionnaire can be completed
electronically through our homepage at http://www.hq.nasa.gov/office/oig/hq/audits.html
or can be mailed to the Assistant Inspector General for Auditing; NASA Headquarters,
Code W, Washington, DC 20546-0001.


Report Title:       Independent Verification and Validation of Software

Report Number:                                          Report Date:


Circle the appropriate rating for the following statements.
                                                     Strongly
                                                                                                 Strongly
                                                      Agree
                                                                Agree       Neutral   Disagree   Disagree   N/A
1.   The report was clear, readable, and logically
                                                        5         4           3          2          1       N/A
     organized.
2.   The report was concise and to the point.           5         4           3          2          1       N/A
3.   We effectively communicated the audit
                                                        5         4           3          2          1       N/A
     objectives, scope, and methodology.
4.   The report contained sufficient information
     to support the finding(s) in a balanced and        5         4           3          2          1       N/A
     objective manner.

Overall, how would you rate the report?

# Excellent              # Very Good            #     Good              #      Fair          #    Poor


If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

   #   Congressional Staff                 #    Media
   #   NASA Employee                       #    Public Interest
   #   Private Citizen                     #    Other:
   #   Government:            Federal:              State:        Local:


May we contact you about your comments?

Yes: ________                               No: ______
Name: ____________________________
Telephone: ________________________


Thank you for your cooperation in completing this survey.
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for
Audits at (202) 358-1232.


Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General
for Audits. Ideas and requests can also be mailed to:

     Assistant Inspector General for Audits
     Code W
     NASA Headquarters
     Washington, DC 20546-0001



NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form;
or write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station,
Washington, DC 20026. The identity of each writer and caller can be kept confidential,
upon request, to the extent permitted by law.


Major Contributors to the Report

David L. Gandrud, Program Director, Aeronautics and Infrastructure Audits

Tony A. Lawson, Audit Manager, Aeronautics and Infrastructure Audits

Roger W. Flann, Audit Manager, Aeronautics and Infrastructure Audits

James H. Pearce, Auditor

Bessie J. Cox, Auditor

Barbara J. Smith, Program Assistant
